Audit Report




OIG-14-009
Audit of the Exchange Stabilization Fund’s Fiscal Years 2013
and 2012 Financial Statements


December 13, 2013




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               December 13, 2013


            MEMORANDUM FOR MARK SOBEL
                           DEPUTY ASSISTANT SECRETARY FOR INTERNATIONAL
                           MONETARY AND FINANCIAL POLICY

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audit

            SUBJECT:                 Audit of the Exchange Stabilization Fund’s Fiscal Years 2013
                                     and 2012 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statements for fiscal years 2013 and 2012. Under a contract monitored
            by the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ESF as of
            September 30, 2013 and 2012 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards and Office of Management and Budget Bulletin No.
            14-02, Audit Requirements for Federal Financial Statements.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                    •   the financial statements were fairly presented, in all material respects, in
                        accordance with U.S. generally accepted accounting principles;
                    •   no deficiencies in internal control over financial reporting that are
                        considered material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 5, 2013 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audit at
(202) 927-5591.

Attachment
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND

       Financial Report

       Fiscal Year 2013
                          DEPARTMENT OF THE TREASURY
                          EXCHANGE STABILIZATION FUND

                                      Table of Contents




                                                                              Page


Policy and Operations Statements                                                1
Independent Auditors’ Report                                                    3
Independent Auditors’ Report on Internal Control Over Financial Reporting       5
Independent Auditors’ Report on Compliance and Other Matters                    7
Financial Statements:
   Statements of Financial Position                                             8
   Statements of Operations, Comprehensive Operations and Retained Earnings      9
   Statements of Cash Flows                                                     10
Notes to Financial Statements                                                   11
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2013



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay
$1.8 billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976
(P.L. 94-564, October 19, 1976) amended the language of Section 10 of the Gold Reserve Act to
specify that the ESF is to be utilized as the Secretary “may deem necessary to and consistent
with the United States obligations in the International Monetary Fund.” This amendment
became effective on April 1, 1978, the date of entry into force of the Second Amendment of the
IMF Articles of Agreement. In 1977, P.L. 95-147 further amended Section 10 of the Gold
Reserve Act. Following codification, Section 10 now provides in relevant part:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564),
Special Drawing Rights (SDRs) allocated by the IMF to the United States or otherwise acquired
by the United States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR



Unaudited – see accompanying auditor’s report                                                       1
                          EXCHANGE STABILIZATION FUND
                        POLICY AND OPERATIONS STATEMENTS
                                 FISCAL YEAR 2013



certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.     Foreign Currency Operations

       a. Euros and Japanese Yen

          The ESF had a net valuation loss of $1.3 billion on its holdings of euros and yen. The
          ESF had investment income of $103.2 million equivalent on its euro and yen assets.

       b. Mexico

          In December 2012, the Treasury and Federal Reserve Bank of New York, acting as
          Treasury’s fiscal agent, renewed the Exchange Stabilization Agreement with Mexico
          for another year to December 2013.

II.    SDR Operations

       As of September 30, 2013, U.S. holdings (assets) of SDRs totaled SDR 35.8 billion
       ($55.0 billion equivalent), a net change of 0 SDR during Fiscal Year 2013. However, as
       the SDR appreciated against the dollar in this period, there was a net valuation loss of
       $290.3 million on U.S. holdings of SDRs. The ESF reimbursed the Treasury’s General
       Fund $23.6 million for SDRs received from the IMF as remuneration on the U.S. reserve
       position in the IMF. The ESF earned interest of $40.2 million equivalent on its SDR
       holdings.

       As of September 30, 2013, cumulative allocations to (liabilities of) the United States
       totaled SDR 35.3 billion ($54.2 billion equivalent). These liabilities would come due only
       in the event of liquidation of, or U.S. withdrawal from, the SDR Department of the IMF, or
       cancellation of SDRs.

       There were $5.2 billion of SDR certificates that had been issued to the Federal Reserve
       System prior to fiscal year 2013.

III.   Income and Expense

       Interest revenue totaled $156.0 million, consisting of $12.6 million in interest on dollar
       holdings invested in U.S. Government securities, $40.2 million equivalent in interest on
       SDR holdings, and $103.2 million equivalent in interest on foreign currency investments.

       Interest expense totaled $39.6 million, primarily representing interest charges on SDR
       Allocations.



Unaudited – see accompanying auditor’s report                                                       2
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General
U. S. Department of the Treasury:

Report on the Financial Statements

We have audited the accompanying financial statements of the U.S. Department of the Treasury’s
Exchange Stabilization Fund (“ESF”), which comprise the statements of financial position as of
September 30, 2013 and 2012, and the related statements of operations, comprehensive operations and
retained earnings, and cash flows, (hereinafter referred to as “financial statements” or “basic financial
statements”) for the years then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Exchange Stabilization Fund as of September 30, 2013 and 2012, and the results
of its operations and its cash flows for the years then ended in accordance with U.S. generally accepted
accounting principles.

Other Matter

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The Policy and Operations Statements section is presented for purposes of additional analysis and is
not a required part of the basic financial statements. Such information has not been subjected to the
auditing procedures applied in the audits of the basic financial statements, and accordingly, we do not
express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated December 5,
2013 on our consideration of the ESF’s internal control over financial reporting and our report dated
December 5, 2013 on our tests of its compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards in considering ESF’s internal control over
financial reporting and compliance.




December 5, 2013
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the U.S.
Department of the Treasury’s Exchange Stabilization Fund (“ESF”), which comprise the statements of
financial position as of September 30, 2013 and 2012, and the related statements of operations,
comprehensive operations and retained earnings, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and the related notes to the financial statements, and have issued our
report thereon dated December 5, 2013.

Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements as of and for the year ended September 30,
2013, we considered the ESF’s internal control over financial reporting (internal control) to determine the
audit procedures that are appropriate in the circumstances for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the ESF’s
internal control. Accordingly, we do not express an opinion on the effectiveness of the ESF’s internal
control. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of the ESF’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
the ESF’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 5, 2013
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the U.S.
Department of the Treasury’s Exchange Stabilization Fund (“ESF”), which comprise the statements of
financial position as of September 30, 2013 and 2012, and the related statements of operations,
comprehensive operations and retained earnings, and cash flows, (hereinafter referred to as “financial
statements”) for the years then ended, and the related notes to the financial statements, and have issued our
report thereon dated December 5, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the ESF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the ESF’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the ESF’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 5, 2013




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                                                                 2013            2012

Assets

Cash and Cash Equivalents (Note 2)                                                            $    30,561,249 $    32,433,191
Securities Purchased Under Agreement to Resell (Note 3)                                             2,233,275         771,360
Investment Securities and Other Foreign Currency Denominated Assets, at fair value (Note 5)        14,016,912      15,326,015
Special Drawing Right Holdings (Note 4)                                                            54,966,034      55,232,490
Interest Receivable                                                                                    79,133          89,819
Interest Receivable on Special Drawing Right Holdings                                                   6,430           7,123
Total Assets                                                                                  $   101,863,033 $   103,859,998

Liabilities and Equity

Liabilities:
      Special Drawing Rights Certificates Issued to Federal Reserve Banks (Note 7)            $     5,200,000 $     5,200,000
      Special Drawing Right Allocations (Note 4)                                                   54,177,080      54,463,490
      Interest Payable on Special Drawing Right Allocations                                             6,338           7,024
      Other                                                                                              124              266
Total Liabilities                                                                                  59,383,542      59,670,780

Commitments and Contingencies (Note 9)

Equity:
      Appropriated Capital                                                                            200,000         200,000
      Retained Earnings                                                                            42,467,000      43,634,321
      Accumulated Other Comprehensive Income (Notes 1 and 6)                                        (187,509)         354,897
Total Equity                                                                                       42,479,491      44,189,218

Total Liabilities and Equity                                                                  $   101,863,033 $   103,859,998



See accompanying notes to financial statements.




                                                                    8
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF OPERATIONS, COMPREHENSIVE OPERATIONS AND RETAINED EARNINGS
(In Thousands)

For the years-ended September 30                                                                        2013            2012

Interest Income
      Interest on Cash and Cash Equivalents                                                         $       14,107 $       23,158
      Interest on Securities Purchased Under Agreement to Resell                                               159          4,704
      Interest on Investment Securities and Other Foreign Currency Denominated Assets                      101,558        147,702
      Interest on Special Drawing Right Holdings                                                            40,183         79,639
Total Interest Income                                                                                      156,007        255,203

Interest Expense
      Interest on Special Drawing Right Allocations                                                       (39,614)        (78,565)
      Interest on Special Drawing Right -
          Remuneration due to the U.S. Treasury                                                                (1)             (2)
Total Interest Expense                                                                                    (39,615)        (78,567)

Net Interest Income                                                                                       116,392         176,636

Net Gains/(Losses)
      Gain/(Loss) on Foreign Currency Valuation of:
         Special Drawing Rights Holdings                                                                  (290,222)      (695,209)
         Special Drawing Rights Allocations                                                                286,312        685,644
         Investment Securities and Other Foreign Currency Denominated Assets, net (Notes 1 and 5)         (841,198)      (178,338)
         Other-Than-Temporary Losses on Investment Securities                                             (527,727)             0
         Securities Purchased Under Agreement to Resell                                                     89,278       (177,365)
Total Net Gains/(Losses)                                                                                (1,283,557)      (365,268)

Other Expenses
      International Monetary Fund Annual Assessment                                                            (156)           (591)
Total Other Expenses                                                                                           (156)           (591)

Net Income/(Loss)                                                                                       (1,167,321)      (189,223)

Other Comprehensive Income/(Loss)
     Unrealized Holding Loss, net (Notes 1 and 6)                                                        (542,406)       (412,087)

Comprehensive Income/(Loss)                                                                         $   (1,709,727) $    (601,310)

Retained Earnings, Beginning of Year                                                                $   43,634,321 $    43,823,544

Net Income/(Loss)                                                                                       (1,167,321)      (189,223)

Retained Earnings, End of Year                                                                      $   42,467,000 $    43,634,321



See accompanying notes to financial statements.




                                                                        9
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)

For the years-ended September 30                                                            2013                  2012

Cash Flows from Operating Activities:
     Interest Received on:
         Cash and Cash Equivalents                                                      $            14,123   $            24,141
         Securities Purchased Under Agreement to Resell                                                 179                 4,788
        Investment Securities and Other Foreign Currency Denominated Assets                         183,326              220,076
     Other                                                                                         (11,664)               (3,650)
Net Cash Provided by Operating Activities                                                           185,964              245,355

Cash Flows from Investing Activities:
     Net (Purchases)/Maturities of Securities Purchased Under Agreement to Resell            (1,372,637)            1,556,544
     Purchases of Investment Securities and Foreign Currency Denominated Assets              (9,728,406)           (9,924,743)
     Maturities of Investment Securities and Foreign Currency Denominated Assets              9,624,858             9,807,509
     Reimbursement for Remuneration Received                                                    (23,586)              (52,139)
     Other                                                                                          298                   638
Net Cash Provided by (Used in) Investing Activities                                          (1,499,473)            1,387,809

      Effect of Exchange Rate on Cash                                                          (558,433)            (174,087)

Net Increase/(Decrease) in Cash and Cash Equivalents                                         (1,871,942)            1,459,077

Cash and Cash Equivalents,
  Beginning of Year                                                                          32,433,191            30,974,114

Cash and Cash Equivalents,
  End of Year                                                                           $     30,561,249      $    32,433,191

Reconciliation of Net Income/(Loss) to Net Cash Provided by
   Operating Activities
      Net Income/(Loss)                                                                 $    (1,167,321)      $     (189,223)
      Adjustments to Reconcile Net Income/(Loss) to Net Cash Provided by
         Operating Activities:
            Net Exchange Rate (Gain)/Loss on Repos, FCDAs, and Investment Securities            751,920              355,703
            Decrease/(Increase) in Special Drawing Right Holdings Due to Valuation              290,321              695,756
            Net Increase in Special Drawing Rights Holdings                                        (577)              (1,444)
            (Increase)/Decrease in Accrued Interest Receivable                                   11,379               52,777
            Amortization of Bond Premium/Discount (net)                                          59,752               46,138
            (Decrease)/Increase in Special Drawing Right Allocations Due to Valuation          (286,410)            (686,184)
            (Decrease)/Increase in Accrued Interest Payable and Other                              (827)             (28,168)
            Other-Than-Temporary Losses on Investment Securities                                527,727                    0
Total Adjustments                                                                             1,353,285              434,578
Net Cash Provided by Operating Activities                                               $       185,964       $      245,355




See accompanying notes to financial statements.




                                                                        10
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2013 and 2012



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.    Entity

The Exchange Stablization Fund (ESF) was originally established pursuant to section 10 of the Gold
Reserve Act of 1934 for the purpose of stabilizing the exchange value of the dollar. Section 10 has been
amended several times since 1934. This section currently authorizes the Secretary, with the approval of the
President, to deal in gold, foreign exchange, and instruments of credit and securities consistent with US
obligations in the International Monetary Fund on orderly exchange arrangements and a stable system of
exchange rates. 31 U.S.C. 5302(b).

The Federal Reserve Bank of New York (FRBNY) acts as the fiscal agent for the ESF, as permitted by the
Federal Reserve Act. As the fiscal agent, the FRBNY plays a significant role in the processing of foreign
currency transactions that the Secretary of the Treasury authorizes. The manager of the ESF foreign
currency portfolio at the FRBNY consults regularly with the Federal Open Market Committee and the U.S.
Department of the Treasury (Treasury) about the disposition of investments and the status of the portfolio.
The level and currency composition of the ESF foreign currency portfolio are the products of Treasury
policy determinations. The ESF management is responsible for the record keeping and investment decisions
for foreign currency transaction activity carried out by the FRBNY.

By law, the ESF is not available to pay administrative expenses. Instead the Treasury’s Office of
International Affairs has responsibility for managing ESF operations, and Treasury’s Office of the Deputy
Chief Financial Officer provides the recordkeeping and financial reporting services for the ESF. These
Treasury offices bear all administrative expenses of the ESF. Accordingly, there are no administrative
expenses reported in the financial statements.

B.    Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted accounting
principles, based on accounting standards issued by the Financial Accounting Standards Board (FASB), the
private-sector standards-setting body.

C.    Risks and Uncertainties

The ESF faces certain risks and uncertainties as a result of holding foreign currency securities. The price of
ESF’s holdings of such securities may widely fluctuate as a result of volatility in foreign currency markets
and changes in real and perceived credit of ESF’s counterparties.

Credit risk related to its holdings, is the potential, no matter how remote, for financial loss from a failure of a
borrower or counterparty to perform in accordance with underlying contractual obligations.

The preparation of financial statements requires management to make estimates and assumptions that affect
the reported amounts of assets, liabilities, and disclosures of contingent assets and liabilities at the date of
the financial statements and the reported amounts of revenues and expenses during the reporting period.
Significant estimates are used in the preparation of amounts related to the valuation of investments and
contingent liabilities. Actual results could differ from those estimates.




                                                     11                                              (Continued)
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2013 and 2012



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

D.    Cash and Cash Equivalents

Cash equivalents are short-term, highly liquid investments that are both readily convertible to known
amounts of cash, and so near their maturity that they present insignificant risk of change in value due to
changes in interest rates. Cash and Cash Equivalents consist of the following:

  •   U.S. Government Securities, and

  •   Short-term Foreign Currency Denominated Assets (FCDAs) – including deposits and securities
      denominated in both euro and yen

E.    Investments

Held-to-maturity securities are those securities in which the entity has the ability and intent to hold the
security until maturity. Held-to-maturity securities are recorded at amortized cost, adjusted for the
amortization and accretion of premiums or discounts.

Trading securities are bought and held principally for the purpose of selling them in the near term. ESF has
no securities classified as trading.

Available-for-sale securities are those which are neither trading nor held-to-maturity. ESF’s Other FCDAs
and Investment Securities are classified as available-for-sale. Available-for-sale securities are recorded at
fair value. Unrealized holding gains and losses on available-for-sale securities, including amounts related to
foreign currency valuation, are excluded from earnings and are reported as a separate component of
accumulated other comprehensive income until realized. Realized gains and losses from the sale of
available-for-sale securities are determined on a specific-identification basis.

Interest on investments, amortization of premiums, and accretion of discounts are reported in Interest
Income and are recognized on an accrual basis. Premiums and discounts are amortized or accreted over the
life of the related investment security as an adjustment to yield using the effective–interest method.

Foreign currency assets (FCA) include interest-bearing foreign deposit accounts and investments in foreign
government securities.

FCAs also include FCDAs reported as Cash and Cash Equivalents, Other FCDAs, and Investment
Securities. These categorizations are based on maturity. FCDAs have terms of 3 months or less. Other
FCDAs have terms of less than or equal to a year but greater than 3 months and Investment Securities have
terms greater than a year.

F. Securities Purchased Under Agreement to Resell

Securities Purchased Under Agreement to Resell, generally have agreement terms that do not exceed 90
days, and these are generally treated as collateralized financial transactions and are carried at amounts at
which the securities were acquired, adjusted for translation gains/losses if such agreements pertained to
FCAs.



                                                   12                                           (Continued)
                                    DEPARTMENT OF THE TREASURY
                                    EXCHANGE STABILIZATION FUND
                                   NOTES TO FINANCIAL STATEMENTS
                                       September 30, 2013 and 2012



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

G.       Foreign Currency Valuations

In accordance with Foreign Currency Matters (FASB ASC 830), FCAs as well as Special Drawing Rights
and related accrued interest receivable or payable, discussed below, are revalued to reflect exchange rates in
effect as of the reporting date. Such gains or losses, recognized in the period of the fluctuations, are
reported on the Statements of Operations and Comprehensive Operations and Retained Earnings as Gains
(Losses) on Foreign Currency Valuation. Gains and losses related to foreign currency valuations of
Investment Securities and Other FCDAs that are available- for-sale are excluded from earnings and are
reported as a component of Other Comprehensive Income until realized.

H.       Other-than-temporary-Impairment

A decline in the market value (either due to credit, price or currency) of any investment below cost that is
deemed to be other-than-temporary is accounted for as an impairment and the carrying value is reduced to
fair value for financial statement reporting purposes. The impairment is charged to earnings and the
charge establishes a new cost basis for the investment. To determine whether impairment is other-than-
temporary, the ESF considers whether it has the ability and intent to hold the investment until a market
price recovery and considers whether evidence indicating the cost of the investment is recoverable
outweighs evidence to the contrary. Evidence considered in this assessment includes the reasons for the
impairment, the severity and duration of the impairment, changes in value subsequent to year-end,
forecasted performance of the investee, remaining maturity of the investment and the general market
condition in the geographic area or industry in which the investee operates. ESF regularly evaluates
whether unrealized losses on investment securities indicate other-than-temporary impairment that would
require recognition in the financial statements.

I.       Fair Values of Financial Instruments

Fair Value Measurements and Disclosures (FASB ASC 820-10) establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The hierarchy gives the highest
priority to unadjusted quoted prices in active markets for identical assets or liabilities (Level 1
measurements) and lowest priority to measurements involving significant unobservable inputs (Level 3
measurements). The three levels of the fair value hierarchy are as follows:

     •    Level 1 Inputs: Unadjusted quoted prices in active markets for identical assets or liabilities
          accessible to the reporting entity at the measurement date.

     •    Level 2 Inputs: Other than quoted prices included in Level 1 inputs that are observable for the
          asset or liability, either directly or indirectly, for substantially the full term of the asset or liability.

     •    Level 3 Inputs: Unobservable inputs for the asset or liability used to measure fair value to the
          extent that observable inputs are not available, thereby allowing for situations in which there is
          little, if any, market activity for the asset or liability at measurement date.

All of the ESF’s investments are Level 1 measurements since these financial assets are traded in active
markets where quotable values are readily available.



                                                        13                                               (Continued)
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2013 and 2012



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

J.    Special Drawing Right Certificates Issued to Federal Reserve Banks

Special Drawing Right Certificates issued to Federal Reserve Banks (FRB) are reflected on the
Statements of Financial Position at their face value. Under the terms of the agreement, there is no set
repayment date and no interest accrued while certificates remain outstanding. As a result, the carrying
amount represents the face value.

K.    U.S. Government Securities

The ESF invests dollars in excess of its immediate needs in overnight, nonmarketable U.S. government
securities issued by the Treasury. The interest rate earned on the investments is equal to the overnight
repurchase agreement rate as established by the Treasury’s Bureau of Fiscal Service.

L.    Other Comprehensive Income

Accumulated Other Comprehensive Income/(Loss) is made up only of changes in the fair value of
investments classified as available-for-sale. Unrealized gains and losses, if any, are subsequently
reclassified into income in the same period the underlying investment is either sold or transferred to the
Trading classification.

M.    Tax-Exempt Status

As a component of the Treasury, which is a federal agency, the ESF is not subject to federal, state, or
local income taxes, and accordingly, no provision for income taxes is recorded.

NOTE 2 – CASH AND CASH EQUIVALENTS

Cash and cash equivalent amounts held as of September 30, 2013 and 2012 are as follows:

 September 30 (In Thousands)                              2013                            2012


 Cash and cash equivalents:
 U. S. government securities                             $ 22,669,271                    $ 22,680,149

 Short-term FCDAs:
     European euro                                            4,759,250                      5,809,970
     Japanese yen                                             3,132,728                      3,943,072
 Total short-term FCDAs                                       7,891,978                      9,753,042
 Total cash and cash equivalents                         $ 30,561,249                    $ 32,433,191

As of September 30, 2013 and 2012, $2.4 billion and $3.0 billion, respectively of the Japanese yen short-
term FCDA’s are part of the Bank of Japan’s Automatic Investment Facility, investing funds overnight in
short term Japanese government financing bills and/or treasury bills.

                                                 14                                          (Continued)
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2013 and 2012



NOTE 3 – SECURITIES PURCHASED UNDER AGREEMENT TO RESELL

The FRBNY, on behalf of ESF, enters into transactions to purchase foreign-currency-denominated
government-debt securities under agreements to resell for which the accepted collateral is the debt
instruments, denominated in euro, and issued or guaranteed in full by European governments. These
agreements are subject to daily margining requirements.

NOTE 4 – SPECIAL DRAWING RIGHTS

The SDR is an international reserve asset created by the International Monetary Fund (IMF) in 1969 to
supplement the existing reserve assets of IMF member countries, including the United States. In addition
to its role as a supplementary reserve asset, the SDR serves as a means of payment within the IMF, as
well as the unit of account for the IMF and several other international organizations. SDRs may be held
only by the official sector – IMF member countries and certain institutions designated by the IMF as
prescribed holders. On several occasions SDRs have been allocated by the IMF to members participating
in the IMF’s SDR Department, including the United States. SDR transactions by the United States require
the explicit authorization of the Secretary of the Treasury.

The SDR’s value is based on a weighted average of a basket of key international reserve currencies issued
by IMF members (or monetary unions that include IMF members) which have been determined by the
IMF to be freely usable currencies. These currencies are the U.S. dollar, the Euro, the Japanese yen, and
the pound sterling. The SDR carries a variable interest rate, calculated weekly as a weighted average of
short-term interest rates of the SDR basket of currencies. The ESF’s SDR Allocations and Holdings (see
below) are revalued monthly, based on the SDR valuation rate calculated by the IMF, and unrealized
gains or losses on revaluation are recognized. SDR Holdings and SDR Allocations are reported as an
asset and liability respectively in the financial statements of the ESF.

SDR Allocations

SDRs, once allocated to the United States, are permanent resources unless:

    a. They are canceled by an 85 percent majority decision of the total voting power of the Board of
       Governors of the IMF;

    b. The SDR Department of the IMF is liquidated;

    c. The IMF is liquidated; or

    d. The United States chooses to withdraw from the IMF or terminate its participation in the SDR
       Department.

Due to the fact that the SDRs are able to be withdrawn, the ESF carries a liability related to such
allocations.




                                                 15                                         (Continued)
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2013 and 2012



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

Except for the payment of interest and charges on SDR allocations to the United States, the payment of
the ESF’s liability related to the SDR allocations is conditional on events listed above, in which the
United States has a controlling voice. Allocations of SDRs were made during 1970, 1971, 1972, 1979,
1980, 1981, and 2009. As of September 30, 2013 and 2012, the value of SDR allocations to the United
States was the equivalent of $54.2 billion and $54.5 billion, respectively.

SDR Holdings

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated by the IMF to, or
otherwise acquired by the United States, are also resources (holdings) of the ESF. SDR Holdings
represent transactions resulting from these SDR activities, primarily the result of IMF allocations. Other
transactions reported in this account are recorded as they are incurred and include any SDR acquisitions
and sales, interest received on SDR Holdings, interest charges on SDR Allocations, and other SDR
related activities, as well as valuation adjustments.

Pursuant to the Supplemental Appropriations Act, 2009 (P.L. 111-32), the United States consented to an
increase in its quota in the International Monetary Fund. Twenty-five percent of the quota was paid by the
United States using SDRs (equivalent to SDR 1,243.275 million).

Other SDR Activities

The U.S. Government receives remuneration in SDRs from the IMF on the U.S. claim on the IMF,
represented by the U.S. Reserve Position. The ESF is the only agency within Treasury permitted to
transact in SDRs. SDRs received become the resources of the ESF, as required by law, and the ESF pays
the dollar equivalent to the U. S. Government’s Treasury General Account (TGA). The ESF's receipt of
the SDRs and payment of the dollar equivalent to the TGA are not simultaneous. Typically, the payment
is several weeks after the receipt of SDRs from the IMF. Therefore, the ESF must reimburse the TGA the
interest it earned on the dollar equivalent of the SDRs held on behalf of the TGA during the period which
elapsed between the receipt of the SDRs and the dollar payment to the TGA.

The ESF paid to the TGA $980 and $1,450 in fiscal years 2013 and 2012, respectively, in interest due on
the transferred dollars. The ESF did not sell SDRs to any participating members during fiscal year 2013
or 2012.




                                                 16                                          (Continued)
                                   DEPARTMENT OF THE TREASURY
                                   EXCHANGE STABILIZATION FUND
                                  NOTES TO FINANCIAL STATEMENTS
                                      September 30, 2013 and 2012



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

The following schedule reflects the activity related to SDR Holdings during fiscal years 2013 and 2012 in
SDR and dollar equivalent.

September 30 (SDR In Thousands)                               2013                           2012

Beginning balance                                               35,814,322                       35,780,344
Interest received on holdings                                         26,859                           69,637
Interest charges on allocations                                      (26,481)                       (68,711)
Remuneration                                                          15,464                           33,464
IMF annual assessment                                                  (199)                             (412)
Total SDR - Holdings                                            35,829,965                       35,814,322

September 30 (Dollar Equivalent
In Thousands)                                                 2013                              2012

Beginning balance                                          $ 55,232,490                     $ 55,875,301
Interest received on holdings                                        40,975                            108,670
Interest charges on allocations                                  (40,398)                          (107,226)
Remuneration                                                         23,586                             52,139
IMF annual assessment                                                 (298)                              (638)
Net gain/(loss) on valuation of
holdings                                                        (290,321)                          (695,756)
Total Dollar Equivalent – Holdings                        $    54,966,034                   $    55,232,490

The table above reflects the actual dollar equivalent amount of SDRs received or transferred by the ESF.
Amounts within the financial statements computed on accrual basis will thus differ due to changes in foreign
exchange rates since actual SDR movements occur shortly after the balance sheet date.




                                                  17                                            (Continued)
                                    DEPARTMENT OF THE TREASURY
                                    EXCHANGE STABILIZATION FUND
                                   NOTES TO FINANCIAL STATEMENTS
                                       September 30, 2013 and 2012



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS

The amortized cost, gross unrealized holding gains and losses, and fair value of available-for-sale and held-to-
maturity debt securities by major security type and class of security at September 30, 2013 and 2012 were as
follows:


                                                        Gross                    Gross
                                                      Unrealized               Unrealized
September 30, 2013             Amortized               Holdings                 Holding
(In Thousands)                  Cost                    Gains                   (Losses)             Fair Value

 Available for sale:
  Other FCDAs                  $    2,795,604              $ 88,384            $           -                $     2,883,988
  German Bonds                      2,342,698                71,892                 (22,550)                      2,392,040
  French Bonds                      1,153,122                56,661                 (10,102)                      1,199,681
  French Notes                      1,145,669                57,304                 (11,092)                      1,191,881
  Japanese Bonds                    6,767,327                13,860                (431,865)                      6,349,322
   Total                     $ 14,204,420                 $ 288,101            $ (475,609)              $       14,016,912

                                                        Gross                    Gross
                                                      Unrealized               Unrealized
September 30, 2012             Amortized               Holdings                 Holding
(In Thousands)                   Cost                   Gains                   (Losses)             Fair Value

 Available for sale:
   Other FCDAs                $ 2,698,677                  $ 61,002             $ (20,427)           $          2,739,252
   German Bonds                 1,984,889                     15,999              (65,565)                      1,935,323
   French Bonds                 1,360,852                     26,318              (48,359)                      1,338,811
   French Notes                 1,311,809                     30,452              (34,658)                      1,307,603
   Japanese Bonds               7,614,891                    409,959              (19,824)                      8,005,026
    Total                    $ 14,971,118                 $ 543,730            $ (188,833)          $       15,326,015

Other FCDAs represent Euro denominated instruments issued by the Bank of International Settlements,
and typically mature within one year.




                                                    18                                            (Continued)
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2013 and 2012



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

Gross unrealized losses or which other-than-temporary impairments have not been recognized and the fair
value of those securities as of September 30, 2013:

                                                       Unrealized Losses
 September 30, 2013
                                                        Greater Than 1                   Fair Value
 (In Thousands)
                                                            Year
 Available-for-sale:
   Other FCDAs                                                      $      -                   $        -
   German Bonds                                                       22,550                      761,276
   French Bonds                                                       10,102                      207,623
   French Notes                                                       11,092                      255,703
   Japanese Bonds                                                     50,008                      180,874
   Total                                                            $ 93,752                  $ 1,405,476



 September 30, 2013                                    Unrealized Losses
                                                                                         Fair Value
 (In Thousands)                                        Less Than 1 Year
 Available-for-sale:
    Other FCDAs                                                     $       -                 $         -
    German Bonds                                                            -                           -
    French Bonds                                                            -                           -
    French Notes                                                            -                           -
    Japanese Bonds                                                    381,857                   2,911,867
    Total                                                           $ 381,857                 $ 2,911,867

Maturities of debt securities classified as available for sale were as follows at September 30, 2013:

 September 30, 2013
 (In Thousands)                                        Amortized Cost                   Fair Value

 Available-for-sale:
   Due within one year                                          $    6,220,440             $       6,288,690
   Due after one year but before five years                          7,983,980                     7,728,222
   Total                                                    $       14,204,420            $       14,016,912




                                                     19                                                (Continued)
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2013 and 2012



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

Impairment Assessment

As of each balance sheet date, the ESF evaluates securities holdings in an unrealized loss position. For debt
securities, the ESF considers whether it has the ability and intent to hold the investment until a market
price recovery and considers whether evidence indicating the cost of the investment is recoverable
outweighs evidence to the contrary. Based on the circumstances present at the date of evaluation if we do not
expect a full recovery of value or do not intend to hold such securities until they have fully recovered their
carrying value, we recognize an impairment charge.

During the year ended September 30, 2013, the yen depreciated dramatically (from all-time highs versus the
dollar that occurred in fiscal 2012). Per GAAP requirements, ESF has recognized other-than-temporary
impairment on Japanese Government Bonds with a maturity date before the end of FY2014, as the full
recovery of the dollar equivalent invested for yen-denominated securities maturing in the next fiscal year
cannot be expected to occur. No other-than-temporary impairment has been identified.

Fair Value

The fair value of securities available for sale are measured using the hierarchy or lowest level input that is
significant to the fair value measurement of the investment in its entirety. The following table presents assets
that are measured at fair value on a recurring basis at September 30, 2013 and 2012.

                                                         Fair Value Measurements at Reporting Date Using
                                                         Quoted Prices
                                                          In Active           Significant
                                                           Markets              Other            Significant
                                   Fair Value            For Identical        Observable        Unobservable
 September 30, 2013 (In                                      Assets             Inputs              Inputs
 Thousands)                       At 9/30/2013              (Level 1)          (Level 2)           (Level 3)

 Available for sale:
    Other FCDAs                    $ 2,883,988             $ 2,883,988              $      -            $      -
    German Bonds                     2,392,040               2,392,040                                         -
    French Bonds                     1,199,681               1,199,681                                         -
    French Notes                     1,191,881               1,191,881                                         -
    Japanese Bonds                   6,349,322               6,349,322                     -                   -
    Total                         $ 14,016,912            $ 14,016,912              $      -            $      -




                                                    20                                            (Continued)
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2013 and 2012



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED
ASSETS (Continued)

                                                      Fair Value Measurements at Reporting Date Using
                                                      Quoted Prices
                                                       In Active           Significant
                                                        Markets              Other           Significant
                                 Fair Value           For Identical        Observable       Unobservable
 September 30, 2012 (In                                   Assets             Inputs            Inputs
 Thousands)                      At 9/30/2012            (Level 1)          (Level 2)         (Level 3)

 Available for sale:
    Other FCDAs                  $ 2,739,252            $ 2,739,252              $      -          $      -
    German Bonds                  1,935,323                1,935,323                                      -
    French Bonds                  1,338,811                1,338,811                                      -
    French Notes                  1,307,603                1,307,603                                      -
    Japanese Bonds                8,005,026                8,005,026                    -                 -
    Total                      $ 15,326,015              $15,326,015             $      -          $      -

NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME

The accumulated balances for other comprehensive income are as follows:

                                                                           Accumulated Other
 September 30, 2013 (In Thousands)                                        Comprehensive Income

 Balance at September 30, 2012                                                               $   354,897
 Net unrealized holding gains/(losses)
   arising during the period                                           $ (894,594)
 Reclassification of realized net (gains)/losses
   recognized in net income                                               (175,539)
 Reclassification adjustment for impairment charges
   on available-for-sale securities included in net
   income                                                                  527,727
                                                                                              (542,406)
 Balance at September 30, 2013                                                              $ (187,509)




                                                 21                                          (Continued)
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2013 and 2012




NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME (Continued)

                                                                              Accumulated Other
 September 30, 2012 (In Thousands)                                           Comprehensive Income

 Balance at September 30, 2011                                                                     $   766,984
 Net unrealized holding gains/(losses)
   arising during the period                                              $ (99,727)
 Reclassification of realized net (gains)/losses
   recognized in net income                                                 (312,360)
   Other comprehensive loss                                                                        (412,087)
 Balance at September 30, 2012                                                                   $ (354,897)

NOTE 7 – SDR CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Right Act of 1968 authorized the Secretary of the Treasury to issue Special Drawing
Right Certificates (SDRCs), not to exceed the value of SDR holdings, to the Federal Reserve System in return
for interest-free dollar amounts equal to the face value of certificates issued (SDR monetization). The
certificates may be issued for the purpose of financing the acquisition of SDRs from other countries or to
provide resources for financing other operations of the ESF. Certificates issued have no set maturity and are to
be redeemed by the ESF at such times and in such amounts as the Secretary of the Treasury may determine
(SDR demonetization). As of September 30, 2013 and 2012, the amount of certificates issued to Federal
Reserve Banks was $5.2 billion.

NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS

Financial Instruments (FASB ASC 825-10) requires all entities to disclose the fair value of financial
instruments, where feasible, in an effort to provide financial statement users with information in making
rational investment and credit decisions.

To estimate the fair value of each class of financial instrument, the ESF applied the following methods
using the indicated assumptions:

Cash and Cash Equivalents

Cash and Cash Equivalents consist of U.S. government securities and FCDAs, and are reported in the
Statements of Financial Position at amounts that approximate their fair values.

Securities Purchased Under Agreement to Resell

The fair value is based upon quoted market interest rates for similar securities.




                                                    22                                            (Continued)
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2013 and 2012



NOTE 8 - FAIR VALUES OF FINANCIAL INSTRUMENTS (Continued)

SDR Certificates Issued to Federal Reserve Banks

The fair value of these certificates is based on the face value of the certificate as they are not subject to
market or interest rate risk nor are they subject to fluctuations in exchange rates.

Special Drawing Right (SDR) Holdings and SDR Allocations

The fair values are based on quoted prices published weekly by the IMF.

Investment Securities and Other FCDAs

The fair value of Investment Securities and Other FCDAs are based upon quoted market and current
exchange rates.

The estimated fair values of the ESF’s financial instruments at September 30 are as follows:

                                                2013                                       2012
September 30                      Carrying              Fair Value           Carrying             Fair Value
In Thousands)                     Amount                                     Amount

Assets:
 Cash and                       $ 30,561,249            $ 30,561,249       $ 32,433,191           $ 32,433,191
  CashEquivalents
 Securities Purchased-
  Under Agreement to
   Resell                           2,233,275              2,233,275             771,360              771,360
 Investment Securities and
  Other Foreign Currency
   Denominated Assets              14,016,912             14,016,912          15,326,015            15,326,015
 SDR Holdings                      54,966,034             54,966,034          55,232,490            55,232,490

Liabilities:
 Certificates Issued to
  Federal Reserve Banks             5,200,000              5,200,000           5,200,000             5,200,000
 SDR Allocations                   54,177,080             54,177,080          54,463,490            54,463,490




                                                   23                                             (Continued)
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2013 and 2012



NOTE 9 – COMMITMENTS AND CONTINGENCIES

Foreign Currency Denominated Agreements

Foreign currency denominated agreements that exist between the Treasury and foreign entities or
governments provide for drawings of dollars by those entities or governments and drawings of foreign
currencies by the Treasury. The Treasury enters into these agreements through the ESF. Under these
agreements, the ESF receives repayment of an agreed-upon amount in dollars regardless of currency
fluctuations. With the exception of the Mexico agreement noted below, there were no foreign currency
denominated exchange stabilization agreements as of September 30, 2013 and 2012.

Exchange Stabilization Agreements

The ESF has an Exchange Stabilization Agreement (ESA) with Mexico. In April 1994, the Treasury
signed the North American Framework Agreement, which includes the ESA with Mexico. The ESA
provides for a $3 billion standing swap line between the Bank of Mexico and the ESF.

The amounts and terms (including the assured source of repayment) of any new borrowings under the
North American Framework Agreement are subject to certain requirements of the agreement that specify
the transactions are exchange rate neutral for the ESF and would bear interest referenced to U.S. Treasury
bills. Drawings are contingent on certain other conditions being met.

There were no drawings outstanding on the ESF swap line as of September 30, 2013 and 2012. On
December 11, 2012, the Treasury renewed its participation in the agreement until December 14, 2013.


NOTE 10 – SUBSEQUENT EVENTS

On October 1, 2013, Treasury suspended, as necessary, the daily reinvestment of the dollar-balance of the
Exchange Stabilization Fund in order to avoid exceeding the statutory debt limit. The dollar-balance of
the ESF is invested entirely in special-issue Treasury securities that are subject to the statutory debt limit.
 The entire dollar-balance matures daily and is ordinarily reinvested. On October 17, 2013, Congress
passed and the President signed into the law the Continuing Appropriations Act, 2014, by action of which
the debt limit was suspended through February 7, 2014. Following the suspension of the debt limit,
Treasury resumed normal procedures for daily reinvestment of the dollar-balance of the ESF.




                                                      24
